No. 21-10

 

In the
Supreme Court of the United States

 

LOorI BRAUN, ET AL.

Petitioner,
Vv.

BRIAN Ray BURKE, ET AL,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
RESPONDENT BRIAN RAY BURKE IN OPPOSITION in the above-entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook 12-point font for the text and 10-point font for the
footnotes, and this brief contains 7,715 words, excluding the parts that are exempted
by Supreme Court Rule 33.1(d), as needed.

I, Matthew G. French, declare under penalty of perjury that the foregoing is
true and correct. This declaration is made pursuant to Supreme Court Rule 33.1(h)
and 28 U.S.C. ยง 1746.
Executed on August 20, 2021.

Utad/

MATTHEW G, FRE
